No.

IN THE SUPREME COURT OF THE UNITED STATES

OTHA RAY FLOWERS,
Petitioner
v.
UNITED STATES OF AMERICA

CERTIFICATE OF SERVICE
I, Jeremy C. Marwell, a member of the Bar of this Court, certify that on this
13th day of October, 2021, I caused to be served by first-class mail, postage prepaid,
a copy of the Application for an Extension of Time to File a Petition for Writ of
Certiorari to the United States Court of Appeals for the Fifth Circuit in the
above-captioned case on:
Brian H. Fletcher
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
Tel: (202) 514-2217
Counsel for Respondent
I further certify that all parties required to be served have been served.

cn
Jeremy. Marwell
Dated: October 13, 2021

